                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL

 .                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

Case Number: A05050022                                                                        11              Page 1 of 1



                 During a review of REU site awards for compliance with human subjects regulations and
        animal welfare policies, we identified an award' involving software development for therapeutic
        purposes. Based on the annual reports for the award, it appeared that the software was tested on
        human subjects, including young children, and that the REU project evaluation may also require
        Institutiohal Review Board (IRB)approval. When we contacted the institution: it reported that it
        had the appropriate IRB approvals for the project but through "several oversights" failed to indicate
        that on the proposal coverpage. It also had not properly declared an exemption from further IRE!
        review for the evaluation part of the award.

                 At our suggestion, the institution volunteered to conduct an'intemal review of its active NSF
        awards and pending proposals to determine whether the clerical oversight ,was part of a larger
        problem. . After identifying several instances of additional "oversights" the institution took the
        initiative to request corrections to the award and proposal jackets1. The institution:also identified
        gaps in its-procedures for reviewing subawardee compliance and implemented new procedural steps
        to allow for provisional review of projects.3                       ,         =i            I *   I




                                                                                      ?


            f
                We are satisfied that the institution has taken appropriate steps to correct its "oversights" and
                %




        to prevent future "oversights."

                    Accordingly, this case is closed.




         The provisional review, as we have seen at other institutions, allows for the IRB to review a project in which
        human subjects work is expected but where the final protocols or project direction has not been fully established.
        This situation arises frequently in REU site awards where the students do not pick their projects until after NSF
        makes the award.



SF OIG Form 2 (1 1/02)
